D
I                                                            EMPLOYMENT AND TRAINING
S
C                                                            ADMINISTRATION
U
S
S
I
O
N              Office of Inspector General—Office of Audit
D
R
A
F
T




                                                             ETA Can Improve Oversight of States'
                                                             UI Administrative Costs




                                                                                Date Issued:   September 19, 2012
02-A12-345-67-890                                                            Report Number:      04-12-002-03-315
U.S. Department of Labor                                    September 19, 2012
Office of Inspector General
Office of Audit
                                                            ETA CAN IMPROVE OVERSIGHT OF STATES' UI
                                                            ADMINISTRATIVE COSTS

BRIEFLY…                                                    WHAT OIG FOUND

Highlights of Report Number 04-12-002-03-315, issued        The OIG found that neither Maine nor Florida was
to the Assistant Secretary for Employment and Training.     consistent in its compliance with Office of Management
                                                            and Budget Circular A-87. For example, we questioned
WHY READ THE REPORT                                         $550,179 in the State of Maine because it spent
                                                            $342,745 on items such as travel and professional fees
The Office of Inspector General (OIG) conducted a           without adequate support, and charged $207,434 in
performance audit of the Employment and Training            administrative costs to the incorrect UI administrative
Administration’s (ETA) controls and processes over          grants. We also questioned $40,982 in the State of
Unemployment Insurance (UI) administrative costs in         Florida because it overcharged the UI administrative
the States of Florida and Maine. While the UI program       grant for postage fees that it had recorded improperly.
is based on federal law, it is administered by the states
under state law. ETA is responsible for setting broad       ETA’s desk reviews were limited and statewide single
policy for the program, monitoring states’ performance,     audits, which ETA relied on, were not always sufficient
and ensuring compliance with federal and state laws.        for testing UI administrative transactions and providing
To ensure compliance, ETA performs quarterly desk           adequate oversight.
reviews of states’ UI administrative activities and
conducts what it refers to as comprehensive reviews of      While ETA conducted what it referred to as
state workforce agencies’ (SWA) administrative              comprehensive reviews of both Florida’s and Maine’s
systems at least once every three years.                    administrative systems in 2009 and 2010, respectively,
                                                            the reviews were generic to all grants and did not
WHY OIG CONDUCTED THE AUDIT                                 identify deficiencies similar to those found in this report.

The audit objective was to answer the following             WHAT OIG RECOMMENDED
question:
                                                            The OIG recommended that the Assistant Secretary for
Did ETA have adequate controls to ensure States’ UI         Employment and Training: 1) recover $550,179 from
administrative costs complied with OMB A-87                 Maine and $40,982 from Florida in questioned costs
requirements?                                               that are detailed in this report, and 2) develop and
                                                            implement a program-specific monitoring guide that
To accomplish our audit, we conducted fieldwork at          includes detailed transaction testing of state UI
SWAs in Florida and Maine.                                  administrative costs as part of ETA’s periodic
                                                            comprehensive monitoring reviews.
READ THE FULL REPORT
                                                            While ETA raised some concerns about OIG’s
To view the report, including the scope, methodology,       conclusions, it agreed with the recommendation to
and full agency response, go to:                            develop a Ul program-specific monitoring guide to
http://www.oig.dol.gov/public/reports/oa/2012/04-12-        enhance existing monitoring procedures, and will
002-03-315.pdf.                                             determine if the questioned costs should be recovered.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                               Oversight of UI Administrative Costs
                                     Report No. 04-12-002-03-315
                                                          U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Objective — Did ETA have adequate controls to ensure States’ UI 

            administrative costs complied with OMB A-87 requirements? ........... 2

         Maine could not support $342,745 in administrative costs. .................................. 3


         Maine improperly charged $207,434 of prior-year administrative costs to 

         the FY 2010 UI grant. ........................................................................................... 3


         Florida could not support $40,982 in administrative costs. ................................... 4


Recommendations ........................................................................................................ 5


Exhibits
         Exhibit 1 Attributes for Projections ........................................................................ 9

         Exhibit 2 Schedule of Questioned Costs ............................................................ 11


Appendices
         Appendix A Background ..................................................................................... 15

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 17

         Appendix C Acronyms and Abbreviations .......................................................... 21

         Appendix D ETA's Response to Draft Report ..................................................... 23

         Appendix E Acknowledgements ......................................................................... 27





                                                                                 Oversight of UI Administrative Costs
                                                                                       Report No. 04-12-002-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                               Oversight of UI Administrative Costs
                                     Report No. 04-12-002-03-315
                                                        U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                              Office of Inspector General
                                                      Washington, D.C. 20210




September 19, 2012

                                Assistant Inspector General’s Report



Jane Oates
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

The Office of Inspector General (OIG) conducted a performance audit of the
Employment and Training Administration’s (ETA) controls and processes over
Unemployment Insurance (UI) administrative costs. While the UI program is based on
federal law, it is administered by the states under state law. Although each state
designs its UI program within the framework of federal requirements, ETA is responsible
for setting broad policy for the program, monitoring states’ performance, and ensuring
compliance with federal and state laws. To ensure compliance, ETA performs quarterly
desk reviews of states’ UI administrative activities and conducts what it refers to as
comprehensive reviews of state workforce agencies’ (SWA) administrative systems at
least once every three years.

The audit objective was to answer the following question:

         Did ETA have adequate controls to ensure States’ UI administrative costs
         complied with OMB A-87 requirements?1

To accomplish our audit, we conducted fieldwork at SWAs in Florida and Maine.2
We selected a statistical sample of 645 cost transactions (459 in Florida, and 186
in Maine) and a non-statistical sample of cost transactions, and examined available
supporting documentation to evaluate the adequacy of States’ controls and
processes over costs incurred using UI administrative funds. We also reviewed
ETA’s practices, policies, and procedures for ensuring compliance with federal and
state laws. The audit covered the period October 1, 2009, to March 31, 2011.

As of March 2011, states had expended $3 billion of the $3.3 billion of Fiscal Year (FY)
2010 UI administrative grant awards. In addition, during this same period, approximately
$300 million UI administrative grant funds were awarded and expended under the
1
 OMB A-87 requirements, as codified in Title 2, Code of Federal Regulations (2 CFR), Part 225, Cost Principles for
State, Local, and Indian tribal Governments
2
  The Florida Department of Economic Opportunity (formerly the Agency for Workforce Innovation prior to
October 1, 2011) and the Maine Department of Labor are the two SWAs where we conducted fieldwork.

                                                                               Oversight of UI Administrative Costs
                                                          1                          Report No. 04-12-002-03-315
                                           U.S. Department of Labor – Office of Inspector General


American Recovery and Reinvestment Act (ARRA). As of March 2011, the State of
Florida spent $151 million of its $200 million grant awards and the State of Maine spent
the entire $20 million of its UI grant awards.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.


RESULTS AND FINDINGS

Objective — Did ETA have adequate controls to ensure States’ UI administrative
            costs complied with OMB A-87 requirements?

ETA can improve its controls to ensure States’ UI administrative costs comply with OMB
A-87 requirements. Neither Maine nor Florida was consistent in compliance with OMB
A-87. For example, with Maine we questioned $550,179 because the State spent
$342,745 on items such as travel and professional fees without adequate support, and
charged $207,434 in administrative costs to the incorrect UI administrative grants —
expenses incurred during FY 2009 were charged to FY 2010 grant funds. Based on a
95 percent confidence level, we estimated that $435,069 of Maine’s $6,371,222 in FY
2010 administrative costs were not charged to the proper UI grant. Regarding Florida,
we questioned $40,982 because the State overcharged the UI administrative grant for
postage fees that it had recorded improperly.

ETA’s desk reviews were limited, and statewide single audits, which ETA relied on,
were not always sufficient for testing UI administrative transactions and providing
adequate oversight. While ETA conducted what it referred to as comprehensive reviews
of both Florida’s and Maine’s administrative systems in 2009 and 2010 respectively, the
reviews were generic to all grants and did not identify deficiencies similar to those found
in this report. In ETA’s 2005 Core Monitoring Guide, ETA indicated that it did not have a
program-specific guide to test UI administrative transactions and that it planned to
develop such a program-specific guide. However, as of the end of our fieldwork, ETA
had not developed this guide.

The States’ UI administrative costs were not always allowable because they were (1)
not adequately supported, (2) not accounted for properly, and (3) not charged to the
proper UI grant. Consequently, we questioned costs for Maine and Florida totaling
$591,161. If ETA’s controls had been adequate, Maine officials would not have
improperly charged $207,434 of prior-year administrative costs to the FY 2010 UI grant,
and we estimated that a total of $435,069 could have been put to better use in the
State.


                                                             Oversight of UI Administrative Costs
                                             2                     Report No. 04-12-002-03-315
                                                      U.S. Department of Labor – Office of Inspector General




Maine could not support $342,745 in administrative costs.

Maine could not support or properly account for $342,745 in administrative costs from
our non-statistical sample of cost transactions. Specifically, we found the following:

    	 $276,016 for a duplicate transaction entry transferring payroll expenses from FY
       2009 to FY 2010.

    	 $60,660 for unsupported expenses related to travel and professional service
       fees.

    	 $4,396 for payroll expenses related to the Workforce Investment Act program
       that was erroneously included in UI payroll expenses.3

    	 $1,673 for an adjusting entry error.4

Maine improperly charged $207,434 of prior-year administrative costs to the FY
2010 UI grant.

Maine improperly charged $207,434 in UI administrative costs to the FY 2010 grant that
had been incurred in FY 2009. Specifically, 11 of the 1365 transactions in our samples
were improperly charged. As an example, one $71,449 invoice for legal services had a
July 27, 2009, date of service, but the transaction was charged to Maine’s financial
system March 16, 2010. We questioned the full amount of $207,434 because these UI
administrative costs were not related to the FY 2010 grant.

According to Maine’s FY 2010 UI administrative grant – No. UI -19586-10-55-A-23:

        UI Administration -- These funds are available for obligation by the
        Grantee (State) beginning October 1, 2009, through December 31, 2010,
        unless an extension is otherwise approved.

In addition, OMB A-87 requires that costs must conform to any limitations or exclusions
set forth in these principles, federal laws, terms and conditions of the federal award, or
other governing regulations as to types or amounts of cost items.




3
  An erroneous allocated payroll expense of $4,396 for Labor Market Information System, One-Stop Grant (Code
L215) was included in the Unemployment Insurance (Code U210) allocated payroll expense.
4
  $1,673 represents the difference between an adjusting entry that was entered in the system as $50,954 instead of
the supportable amount of $49,281.
5
  Our original combined universe comprised Other Operational Costs, Administrative Staff and Technical (AS&T) and
Non-Personal Service (NPS) transactions. However, because we did not find any exceptions in our universe of Other
Operational Costs, we excluded them from the summary of our projections. As a result, the number of sampled
transactions changed from 186 to 136 and the related gross dollar value changed from $23,356,927 to $6,371,222,
which only included transactions greater than $300.

                                                                           Oversight of UI Administrative Costs
                                                        3                        Report No. 04-12-002-03-315
                                           U.S. Department of Labor – Office of Inspector General


Our sample of 136 transactions from a universe of 1,231 revealed 11 transactions
totaling $207,434 were improperly charged to the FY 2010 UI grant. Based on a 95
percent confidence level, we estimated that, for the period between October 1, 2009,
and March 31, 2011, 37 transactions totaling $435,069, from the universe of
transactions were not charged to the proper UI grant. These funds could have been put
to better use in providing allowable goods and services. See Exhibit 1 for Attributes for
Projections.

By not providing adequate documentation, properly accounting for costs, or charging
costs to the correct grant, Maine was not always in compliance with OMB A-87
requirements. As result, we questioned $550,179 related to these issues. See Exhibit 2
for Schedule of Questioned Costs.

Florida could not support $40,982 in administrative costs.

Florida overcharged the UI administrative grant $40,982 for postage fees because it did
not properly record amounts on two invoices from Pitney Bowes, one of its contractors.
Florida officials agreed that input errors occurred on the invoice payments and that they
would prepare correcting entries. The table below illustrates the incorrect amount
recorded for postage fees.



                 Pitney Bowes’ Invoices for Postage Fees
                           Correct         Incorrect
         Invoice No.       Amount           Amount          Difference
         16406865          $1,013,210       $1,051,397          $38,187
         115460413         $1,158,410       $1,161,205           $2,795
                            Total                               $40,982


Florida officials did not comply with OMB A-87 requirements because the total amount
of postage costs was not supported. We questioned $40,982 related to these expenses.

ETA’s quarterly desk reviews of the States’ UI administrative activities were limited and
generally only verified the accuracy and reasonableness of reported data. ETA also
relied on statewide single audits but these may not have always tested UI administrative
transactions sufficiently. ETA staff conducted what they described as comprehensive
monitoring reviews of Maine in 2009 and Florida in 2010, but reported no issues
regarding either State’s use of UI administrative funds. Our review of the 2005 Core
Monitoring Guide that ETA used in these monitoring reviews found it was not program
specific. Rather, it was generic to all ETA grants and was intended to examine basic
core activities in order to determine the readiness and capacity of the grantee to operate
the grant. In fact, in this guide ETA indicated it did not have a program-specific guide to
test UI administrative transactions and that it planned to develop such a
program-specific guide. However, as of the end of field work, ETA had not developed it.
Therefore, using the 2005 Core Monitoring Guide to conduct monitoring reviews would


                                                             Oversight of UI Administrative Costs
                                             4                     Report No. 04-12-002-03-315
                                            U.S. Department of Labor – Office of Inspector General


not enable ETA to determine whether administrative funds were used in accordance
with OMB A-87 requirements.

ETA concurred that some additional program-specific monitoring is desirable. However,
ETA submitted that the report did not adequately reflect ETA’s vigorous commitment to
the integrity of the UI Program, and the strong grant management process in place to
identify and provide assistance to states with fiscal integrity issues.

As we previously pointed out, ETA suggested its oversight efforts could be strengthened
by developing a program-specific guide to supplement its Core Monitoring Guide, which
it found to be generic to all ETA grants. Since our audit was limited to Florida and
Maine, our audit results may not be reflective of all results of UI oversight for all states’
use of administrative funds. However, the issues we identified require program-level
solutions and in light of our consideration of ETA’s oversight efforts of UI Administrative
costs, we believe the report accurately reflects our audit results.

ETA’s response is included in its entirety in Appendix D.


RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training:

   1. Recover $550,179 from Maine and $40,982 from Florida in questioned costs that
      are detailed in this report.

   2. Develop and implement a program-specific monitoring guide that includes
      detailed transaction testing of state UI administrative costs as part of ETA’s
      periodic comprehensive monitoring reviews.


We appreciate the cooperation and courtesies that ETA and the States of Florida and
Maine personnel extended to the Office of Inspector General during this audit. OIG
personnel who made major contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                              Oversight of UI Administrative Costs
                                              5                     Report No. 04-12-002-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                               Oversight of UI Administrative Costs
              6                      Report No. 04-12-002-03-315
            U.S. Department of Labor – Office of Inspector General




Exhibits





                              Oversight of UI Administrative Costs
             7                      Report No. 04-12-002-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                               Oversight of UI Administrative Costs
              8                      Report No. 04-12-002-03-315
                                                    U.S. Department of Labor – Office of Inspector General


                                                                                                 Exhibit 1
Attributes for Projections

                                                                               Maine
                                                                          Administrative
Attributes for Projections                                                                   Total NPS and
                                                         Non-Personal       Staff and
                                                                                                 AS&T
                                                           Services         Technical
                                                                                             Transactions
                                                            (NPS)            (AS&T)
Universe Size                                                      975                256               1,231
Sample Size                                                         74                 62                 136
Number of Transactions with Errors
Identified in Sample                                                 4                   7                    11

Point Estimate of Percentage of
Transactions in Universe with Errors                            2.97%               3.13%

Point Estimate of Transactions with Errors
                                                                    29                   8                    37

Projected Percent of Lower Limit
Transactions in Universe                                           0%               1.89%
Lower Limit Estimate of Transactions with
Errors in Universe                                                   0                   5                    5

Projected Percent of Upper Limit
Transactions in Universe                                        6.68%               4.36%
Upper Limit Estimate of Transactions with
Errors in Universe                                                  65                 11                     76


Point Estimate of Financial Impact
                                                             $333,590            $101,479           $435,069
Lower limit Estimate of Financial Impact                                          $94,254            $94,254
                                                                     0
Upper limit Estimate of Financial Impact
                                                             $711,920            $108,704           $820,624

Note:	 Maine’s UI administrative expenditures totaled $19,930,949. However, its gross UI Administrative
       grant expenditures for FY 2010 were $23,356,927, including transactions greater than $300. We
       did consider credits for selected transactions to ensure the net payment was correct. We
       established three separate universes from these costs: (1) NPS – $5,667,389, (2) AS&T –
       $703,833, and (3) Other Operational Costs – $16,985,705. We excluded the “Other Operational
       Costs” universe from the summary of our projections because we did not have any exceptions
       from this universe. As a result, the revised total number of transactions related to our projections
       is 1,231 (975 NPS and 256 AS&T) and the related dollar amount is $6,371,222 ($5,667,389 NPS
       and $703,833 AS&T).




                                                                         Oversight of UI Administrative Costs
                                                     9                         Report No. 04-12-002-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                               Oversight of UI Administrative Costs
              10                     Report No. 04-12-002-03-315
                                              U.S. Department of Labor – Office of Inspector General


                                                                                           Exhibit 2
Schedule of Questioned Costs



               Maine's UI Questioned Costs - Not in the Proper Grant Period
      Universe                           Description of Transaction Questioned
      Category  Record/ID No.            Transactions        Amount         Amount
                                         Allocated Cost
      AS&T      ALLOC201003DOHNPS        (Other)              45,200.24      10,887.77
                                         Allocated
                8110SH1147               Payroll              40,676.85      40,676.85
                10PVS0329N001IT          IT Costs             24,396.59      24,396.59
                                         Allocated
                ALLOC201003DOHPSPB Payroll                    23,621.40       3,869.00
                10PVS0401N003IT          IT Costs             18,228.62       2,401.20
                                         Allocated Cost
                FEDDOHTO02010B           (Other)              14,256.67      14,256.67
                                         Allocated Cost
                ALLOC201003DAPAC         (Other)               9,313.04       2,268.58
                                                             Sub-Total      $98,756.66

      NPS             10PVS0521N001AG         Legal Services      110,385.77         26,292.20
                      10PVS0316N001AG         Legal Services       71,448.67         71,448.67
                      10PVS0402N001IT         IT Costs             10,566.59         10,566.59
                      4432682                 Travel Costs            369.51            369.51
                                                                     Sub-Total   $108,676.97
                               Total Questioned Cost Amount                      $207,433.63




                      Maine's UI Questioned Costs - Not Adequately Supported
  Universe                                       Description of        Transaction    Questioned
  Category             Record/ID No.             Transactions            Amount        Amount
  AS&T                 FEDDOHTO02010A            Travel Cost             14,281.24          660.00
                                                 Professional
  NPS                  11PVS1103N001TD           Services Fees           60,000.00       60,000.00
  Other Operational
  Costs                PAJVUIJAN06TOFEB1710      Allocated Payroll      424,818.89        4,395.93
  Other Operational
  Costs                1002KR004                 Allocated Payroll      389,308.75      276,016.12
  Other Operational
  Costs                0510JMC022                Allocated Payroll       88,771.00        1,673.35
                                                 Total Questioned Cost Amount          $342,745.40




                                                                  Oversight of UI Administrative Costs
                                                11                      Report No. 04-12-002-03-315
                                                  U.S. Department of Labor – Office of Inspector General




Scheduled of Questioned Costs (Cont.)


            Florida’s UI Questioned Costs – Not Adequately Supported or Unreasonable

   Universe                                Description of     Transaction
   Category           Record/ID No.        Transactions         Amount         Questioned Amount

   NPS                161874               Postage Fees       1,104,838.61                   2,794.90

                      1262137              Postage Fees         288,937.11                  38,186.88
                                          Total Questioned Cost Amount                     $40,981.78

Note: 	We questioned a total of $591,161 for Maine and Florida. In Maine we noted issues in 16 of the
       186 transactions tested and a total of $550,179 was questioned. In Florida, we noted issues in at
       least 5 of the 459 statistically sampled transactions and a total of $40,981.78 was questioned
       related to overcharged postage costs




                                                                     Oversight of UI Administrative Costs
                                                    12                     Report No. 04-12-002-03-315
              U.S. Department of Labor – Office of Inspector General




Appendices





                                Oversight of UI Administrative Costs
               13                     Report No. 04-12-002-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                               Oversight of UI Administrative Costs
              14                     Report No. 04-12-002-03-315
                                                       U.S. Department of Labor – Office of Inspector General


                                                                                                    Appendix A
Background

The OIG conducted a performance audit of ETA controls and processes over States’ UI
Administrative costs. The UI program is based upon federal law, but it is administered
by state employees under state law. Specifically, each state designs its UI program
within the framework of the federal requirements.

The Federal Unemployment Tax Act funds are used to administer the UI programs in all
states. To ensure funding amounts necessary for proper and efficient administration of
the UI program, ETA provides annual formula workload-based grants to states in
accordance with Section 302(a) of the Social Security Act. A base administrative grant
is issued at the beginning of each fiscal year. States have up to 5 quarters to obligate
these funds.

UI Administrative Funds are available for obligation beginning October 1 through
December 31 of the following year (for example October 2010 – December 2011)
unless an extension is approved. Without an approved extension, these funds must be
expended and liquidated by March of the next year (for example, March 2012) unless
they have been made available for UI automation acquisition which again allows them
up to 3 years to spend the funds. ETA granted Florida’s request to extend the period to
liquidate its regular UI administrative funds to June 30, 2011. Emergency
Unemployment Compensation (EUC) and Federal Additional Compensation (FAC)
Funds are without fiscal year limitations. These funds may be expended as long as
costs to administer the EUC and FAC programs are incurred within the federal
appropriation law constraints.

According to ETA officials, all UI grantees have agreed to follow the cost principles
currently codified at 2 CFR, Part 225 (OMB A-87). Furthermore, the administrative
systems of all SWAs are monitored periodically onsite following ETA standard
monitoring procedures and using the Core Monitoring Guide. ETA’s regional offices are
responsible for conducting what they refer to as comprehensive reviews of SWA
administrative systems and their compliance with federal requirements, at least once
every 3 years. ETA will require corrective action for all grants operated by the SWA with
deficiencies.

In 1987, DOL granted states bottom-line authority, which gave them greater flexibility
over UI expenditures. However, ETA and states still had a shared responsibility for
monitoring the UI program within each state. States are required to report administrative
expenditures quarterly on ETA Form 9130, Financial Status Report.

As of March 2011, states spent a total of $3 billion of the $3.3 billion in UI Administrative
grant awards in FY 2010.6 In addition, approximately $300 million was awarded and
spent under ARRA for EUC and FAC administrative costs. As of March 2011, the State

6
 October 1, 2009 through September 30, 2010 plus an additional quarter to obligate all funds except those allocated
for UI automation enhancements- which states have up to 3 years to spend.

                                                                            Oversight of UI Administrative Costs
                                                         15                       Report No. 04-12-002-03-315
                                                    U.S. Department of Labor – Office of Inspector General


of Florida spent $151 million of the $200 million of its grant awards; and the State of
Maine spent the entire $20 million awards.7 See Table 1 and Table 28 for more details of
Florida and Maine FY 2010 UI administrative grant awards and expenditures.

                                                                                     Table 1
                        State of Florida FY 2010 UI Administrative Funds
                                       as of March 31, 2011


                      Grant
                      Funds                    Awards                Total Expenditures

             Regular UI (plus
             Extended Benefits)               $136,984,063                        $87,775,790
             EUC                                34,396,859                         34,396,859
             FAC                                  1,036,501                          1,036,501
             ARRA/EUC                            25,283,072                        25,283,072
             ARRA/FAC                             2,095,590                          2,095,590
                     TOTALS                   $199,796,085                      $150,587,812
            Note: As of March 31, 2011, the difference between the total awards and expenditures was
            $49,208,273 ($30,790,993 obligated and $18,417,280 unobligated). As of June 30, 2011, Regular UI
            expenditures were $107,882,155 – An increase of $20,106,365.



                                                                                     Table 2

                         State of Maine FY 2010 UI Administrative Funds
                                      as of March 31, 2011

                    Grant
                    Funds                      Awards                Total Expenditures
             Regular UI (plus
             Extended Benefits)
                                               $16,131,202                        $16,131,404
             EUC                                 1,647,671                          1,647,797
             FAC                                       4,974                              4,973
             ARRA/EUC                             1,132,900                          1,132,900
             ARRA/FAC                                  7,760                              7,760
             REA SBR                              1,005,651                          1,006,115
                     TOTALS                    $19,930,158                        $19,930,949



7
 The award and expenditure amounts were rounded to the nearest million dollar amount. 

8
 The Maine expenditures, as supported by Advantage, were $791 more than the awarded amounts. We did not 

consider this difference material. 




                                                                        Oversight of UI Administrative Costs
                                                      16                      Report No. 04-12-002-03-315
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The audit objective was to answer the following question:

   Did ETA have adequate controls to ensure States’ UI administrative costs complied
   with OMB A-87 requirements?

Scope

The audit covered UI administrative activities reported during October 1, 2009, to
March 31, 2011, for the States of Florida and Maine. We selected a statistical
sample of 645 cost transactions — 459 for Florida and 186 for Maine — and
examined available supporting documentation to evaluate the adequacy of controls
and processes over UI Administrative costs. We performed fieldwork at the SWAs
in Florida and Maine; ETA’s national office in Washington, DC; and its regional
offices in Atlanta, GA; and Boston, MA.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

To accomplish our audit objective, we judgmentally selected the identified high-risk
States of Florida and Maine to conduct our fieldwork. Florida was selected because its
FY 2010 regular UI administrative fund obligations were the seventh highest in the
nation (more than $125 million) and its 2009 single audit report for the period ended
June 30, 2009, contained a qualified opinion for the UI program and included findings
related to inaccurate reporting and insufficient documentation to support reporting.
Maine was selected because its FY 2011 base administrative funds allocation included
the highest percentage (50 percent) of combined AS&T and NPS costs as a percentage
of total administrative allocation cost. Nationally, the combined AS&T and NPS cost as
a percentage of total administrative allocation cost was 32 percent. We identified ETA’s
written policies and procedures over State UI Administrative Funds, analyzed ETA’s
oversight responsibilities and its efforts to ensure states’ accountability and compliance,
and reviewed the most recent single audit report for Florida and Maine to identify
performance and management issues and what corrective actions had been taken.

We developed a statistical sampling plan to test the cost transactions of the States of
Florida and Maine for the period October 1, 2009, and March 31, 2011. We used both


                                                             Oversight of UI Administrative Costs
                                             17                    Report No. 04-12-002-03-315
                                           U.S. Department of Labor – Office of Inspector General


attribute and variable sampling at a 95 percent confidence level to estimate the
monetary impact of costs that did not meet OMB A-87 requirements. For the selected
states, we divided administrative costs into three separate universes (AS&T, NPS, and
Other Operational Costs). In the State of Florida, each universe was divided into two
strata – (1) Cost pool and (2) Non-cost pool. We included transactions greater than
$300 from each universe. However, we considered any related credit for selected
transactions to ensure net payments were correct. The universe for Florida
included 71,573 transactions, totaling $176,929,882; and the universe for Maine
included 2,141 transactions, totaling $23,356,927. We selected a statistical sample of
645 transactions for testing — 459 from Florida and 186 from Maine.

Where appropriate, our sample results were projected to their respective universes.
While exceptions were found in our testing of transactions in Florida, we did not project
our results to the universe because the number of exceptions was not deemed material
relative to the projected error amount to the total costs in our population. For Maine, our
projected sample results were deemed significant because costs were not charged to
the correct grant period. However, we also selected a non-statistical sample of costs
within those transactions to determine if costs were in compliance with other attributes
associated with OMB A-87 requirements and found instances of unsupported costs and
accounting errors. We made the decision to judgmentally test these other attributes due
to the high volume of costs and because we did not find a significant number of issues
other than the incorrect charging of FY 2009 transactions to the FY 2010 grant.

At the national level, to determine if ETA has written policies and procedures related to
UI administrative costs, we:

   	 Evaluated policies and procedures;

   	 Met with ETA national and regional office officials to discuss policies and
      procedures related to the distribution of UI Administrative funds and the
      monitoring and oversight of SWAs’ use of those distributed funds to determine
      the adequacy of their controls;

   	 Analyzed the Resource Justification Model (RJM) data — used for UI cost 

      allocation funding — and support to determine its accuracy and reliability; 


   	 Reviewed ETA’s responsibility and efforts for ensuring states complied with
      OMB A-87 and other applicable laws and regulations related to UI Administrative
      costs; and

   	 Reviewed states’ ETA 9130 reports to reconcile reported awards and 

      expenditures. 


Also, to determine if there were processes for establishing indirect cost rates/cost
allocation plans for the SWAs, we:



                                                             Oversight of UI Administrative Costs
                                             18                    Report No. 04-12-002-03-315
                                         U.S. Department of Labor – Office of Inspector General


   	 Reviewed the OASAM, Business Operations Center, Office of Acquisition
      Management Services, Division of Cost Determination (DCD) websites for
      policies and procedures related to DCD's role of approving indirect cost rates and
      cost allocation methodologies;

   	 Interviewed the Chief of DCD regarding the current status of all 53 SWAs’ cost
      allocation plans and/or cost rates; and

   	 Reviewed documentation for a sample of SWAs’ FY 2010 and FY 2011 cost
      allocation plans and summarized the important points.

For Maine and Florida, we:

   	 Obtained copies of their general ledgers and financial databases in order to
      reconcile the States’ most recent submitted 9130 reports to determine if
      expenditures were properly reported and supported;

   	 Reviewed the most recent monitoring reports for each state and assessed their
      impact on this audit, determined whether the report contained corrective action
      plan(s) related to UI Administrative funds and the action taken;

   	 Reviewed the most recent single audit reports to determine whether the reports
      contained corrective action plan(s) related to UI Administrative funds and the
      impact on our reported findings;

   	 Examined work done by the State auditors to determine if it could be used to
      support our audit procedures;

   	 Analyzed the States’ RJM data and support and determined their accuracy and
      reliability, and ensured the UI base-year data in the RJM included only actual
      costs and excluded the state’s resources or ARRA funds before funds were
      allocated; and

   	 Reviewed States’ written policies and procedures on its bottom-line authority and
      how UI administrative funds should be used, as well as ensured transaction costs
      were consistent with those policies and procedures.

In testing UI administrative costs to determine whether costs were allowable (e.g)
allocable, reasonable, adequately supported, and based on an approved indirect cost
rate or cost allocation plan (CAP), we:

   	 Reviewed indirect cost rates or CAP to determine how costs were applied based
      on the indirect cost rate agreement as well as determined that States properly
      obligated UI Administrative funds within the allowed time period, including those
      planned for UI automation upgrades;


                                                           Oversight of UI Administrative Costs
                                           19                    Report No. 04-12-002-03-315
                                          U.S. Department of Labor – Office of Inspector General


     	 Reviewed Supplemental Budget Requests’ usage and ensured States abided by
        the purpose identified in each request, unless approved for other purposes; and

     	 Summarized work papers obtained through interviews and conducted
        transactions testing to determine whether ETA had controls in place and ensured
        UI Administrative costs complied with OMB A-87 requirements.

In planning and performing our audit, we considered whether internal controls significant
to our audit objective were properly designed and placed in operation. This included the
review of documentation to evaluate the adequacy of ETA controls for determining
appropriateness of administrative costs and reporting accurate data and applicable
policies and procedures as they related to administrative funds. We confirmed our
understanding of these controls through interviews and review and analysis of
documentation. We evaluated the adequacy of internal controls used by ETA for
reasonable assurance that selected states were operating and reporting financial
expenditures and results in compliance with federal regulations and guidance. We
evaluated Florida and Maine controls for reasonable assurance that controls were in
place over administrative costs, including appropriateness and allowability of costs. Our
consideration of internal controls would not necessarily disclose all matters that might
be significant deficiencies. Because of inherent limitations in internal controls,
misstatements or noncompliance may nevertheless occur and not be detected.

To achieve the assignment’s objective we relied on the computer-processed data
contained in Florida’s and Maine’s respective Management Information Systems. We
assessed the reliability of the data by (1) performing various testing of required data
elements; (2) interviewing ETA and state officials knowledgeable about the data; and (3)
reviewing Quarterly Performance Reports (QPR) data, and controls for preparing the
QPRs. Based on these tests and assessments, we concluded the data was sufficiently
reliable to use in meeting the audit objective.

Criteria
	     OMB A-87, Costs Principles for State and Local and Indian Tribal Governments
       (as codified at 2 CFR, Part 225)
	     The American Recovery and Reinvestment Act of 2009
	     FY 2010 UI Administrative Grants - Florida and Maine




                                                            Oversight of UI Administrative Costs
                                            20                    Report No. 04-12-002-03-315
                                       U.S. Department of Labor – Office of Inspector General


                                                                              Appendix C
Acronyms and Abbreviations

ARRA            American Recovery and Reinvestment Act

AS&T            Administrative Staff and Technical

CAP             Cost Allocation Plan

CFR             Code of Federal Regulations

DCD             Division of Cost Determination

DOL             Department of Labor

ETA             Employment and Training Administration

EUC             Emergency Unemployment Compensation

FAC             Federal Additional Compensation

FY              Fiscal Year

NPS             Non-personal Service

QPR             Quarterly Performance Report

RJM             Resource Justification Model

SBR             Supplemental Budget Request

SWA             State Workforce Agency

OMB             Office of Management and Budget

OIG             Office of Inspector General

UI              Unemployment Insurance




                                                         Oversight of UI Administrative Costs
                                        21                     Report No. 04-12-002-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                               Oversight of UI Administrative Costs
              22                     Report No. 04-12-002-03-315
                                 U.S. Department of Labor – Office of Inspector General


                                                                        Appendix D
ETA's Response to Draft Report




                                                   Oversight of UI Administrative Costs
                                  23                     Report No. 04-12-002-03-315
U.S. Department of Labor – Office of Inspector General




                  Oversight of UI Administrative Costs
 24                     Report No. 04-12-002-03-315
U.S. Department of Labor – Office of Inspector General




                  Oversight of UI Administrative Costs
 25                     Report No. 04-12-002-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                               Oversight of UI Administrative Costs
              26                     Report No. 04-12-002-03-315
                                        U.S. Department of Labor – Office of Inspector General


                                                                               Appendix E
Acknowledgements

Key contributors to this report were Dwight Gates (Audit Manager), Mark Sanderson,
(Auditor-in-Charge), Velma Ivey, Christy Marshall, Sharon Newby, Thomas Price, and
Ajit Buttar.




                                                          Oversight of UI Administrative Costs
                                         27                     Report No. 04-12-002-03-315
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone: 1-800-347-3756
           202-693-6999

Fax:        202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor 

         200 Constitution Avenue, N.W. 

         Room S-5506             

         Washington, D.C. 20210 

